<html>
<title> - SOCIAL SECURITY'S SOLVENCY CHALLENGE: STATUS OF THE SOCIAL SECURITY TRUST FUNDS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 SOCIAL SECURITY'S SOLVENCY CHALLENGE:
               STATUS OF THE SOCIAL SECURITY TRUST FUNDS

=======================================================================

                                HEARING

                               BEFORE THE 

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2017

                               __________

                          Serial No. 115-SS05

                               __________

         Printed for the use of the Committee on Ways and Means
         
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                   U.S. GOVERNMENT PUBLISHING OFFICE                    
33-480                  WASHINGTON : 2019                     
          


                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
LYNN JENKINS, Kansas                 RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee               DANNY DAVIS, Illinois
TOM REED, New York                   LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania             BRIAN HIGGINS, New York
JIM RENACCI, Ohio                    TERRI SEWELL, Alabama
PAT MEEHAN, Pennsylvania             SUZAN DELBENE, Washington
KRISTI NOEM, South Dakota            JUDY CHU, California
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan

                     David Stewart, Staff Director

                 Brandon Casey, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON SOCIAL SECURITY

                      SAM JOHNSON, Texas, Chairman

TOM RICE, South Carolina             JOHN B. LARSON, Connecticut
DAVID SCHWEIKERT, Arizona            BILL PASCRELL, JR., New Jersey
VERN BUCHANAN, Florida               JOSEPH CROWLEY, New York
MIKE KELLY, Pennsylvania             LINDA SANCHEZ, California
JIM RENACCI, Ohio
JASON SMITH, Missouri



                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 14, 2017, announcing the hearing................     2

                                WITNESS

Stephen C. Goss, Chief Actuary, Social Security Administration...     5

                        QUESTIONS FOR THE RECORD

Questions submitted by the Subcommittee on Social Security of the 
  Committee on Ways and Means to Stephen C. Goss, Chief Actuary, 
  Social Security Administration.................................    30
Questions submitted by Representative Jim Renacci, of Ohio, to 
  Stephen C. Goss, Chief Actuary, Social Security Administration.    31

                       SUBMISSIONS FOR THE RECORD

Michael G. Bindner, Center for Fiscal Equity.....................    33
David Barnes, Director of Policy Engagement, Generation 
  Opportunity....................................................    39
Strengthen Social Security Coalition.............................    41

 
                 SOCIAL SECURITY'S SOLVENCY CHALLENGE:
                     STATUS OF THE SOCIAL SECURITY
                              TRUST FUNDS

                              ----------                              


                         FRIDAY, JULY 14, 2017

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:56 a.m., in 
Room 2020, Rayburn House Office Building, Hon. Sam Johnson 
[Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

                 FROM THE COMMITTEE ON WAYS AND MEANS
                 
                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
Friday, July 14, 2017
SS-05

                 Chairman Johnson Announces Hearing on

                 Social Security's Solvency Challenge:

               Status of the Social Security Trust Funds

                              * NEW TIME *

       The new hearing start time is 10:00 a.m. as noted below. 
                  All other details remain unchanged.

    House Ways and Means Social Security Subcommittee Chairman Sam 
Johnson (R-TX), announced today that the Subcommittee will hold a 
hearing entitled ``Social Security's Solvency Challenge: Status of the 
Social Security Trust Funds.'' The hearing will focus on the status of 
the Federal Old-Age and Survivors Insurance (OASI) and Federal 
Disability Insurance (DI) Trust Funds and the effects of delaying 
action to address Social Security's future insolvency. The hearing will 
take place on Friday, July 14, 2017 in room 2020 of the Rayburn House 
Office Building, beginning at 10:00 a.m.
      
    In view of the limited time to hear witnesses, oral testimony at 
this hearing will be from invited witnesses only. However, any 
individual or organization may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Friday, July 28, 2017. For questions, or if you encounter technical 
problems, please call (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.
      
    All submissions and supplementary materials must be submitted in a 
single document via email, provided in Word format and must not exceed 
a total of 10 pages. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.

    All submissions must include a list of all clients, persons and/or 
organizations on whose behalf the witness appears. The name, company, 
address, telephone, and fax numbers of each witness must be included in 
the body of the email. Please exclude any personal identifiable 
information in the attached submission.
      
    Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available at
    http://www.waysandmeans.house.gov/

                                 

    Chairman JOHNSON. Good morning. I have decided that we are 
going to start the hearing early, and since you all are here, 
is that all right with you?
    Mr. GOSS. That sounds just great.
    Chairman JOHNSON. We all know Social Security provides 
important retirement and disability benefits that millions of 
Americans rely on. Yet, as we will hear again today, Congress 
needs to act so we can be sure that those benefits will be 
there for our children and our grandchildren, just like they 
are for seniors and individuals with disabilities today.
    Today, we will hear from the Social Security Chief Actuary 
about the findings in this year's report. And while the report 
had some good news for the Disability Insurance program, make 
no mistake, Social Security faces serious challenges. The 
Trustees Report tells us the Social Security trust funds will 
be exhausted in 2034. At that point, individuals face across 
the board benefits cuts if Congress doesn't act.
    Once the trust funds are exhausted, Social Security will 
only be able to pay 77 percent of promised benefits. That is 
wrong and simply unacceptable.
    The Trustees also tell us today it would take $12.5 
trillion to make Social Security solvent over the next 75 
years. That is not a little number. And the number gets bigger 
every year. In 2011, when I first held a hearing on a Trustees 
Report, it was $6.5 trillion.
    Fixing Social Security will require tough choices, choices 
that will affect the lives of millions of Americans, and I can 
tell you, they aren't easy choices. And while we all may have 
differing views on how to solve it, not talking about the 
problem won't make it go away. And if we wait until the trust 
funds are exhausted, the choices become more difficult and some 
of the options won't be on the table any longer.
    Last December, I introduced my plan to fix Social Security. 
My good friend from Connecticut, Mr. Larson, also has a plan. 
And I appreciate my friend's recognition that Social Security 
is in trouble and we need to fix it. While our plans are very 
different, they both fix Social Security permanently. I believe 
any plan to fix Social Security should do so permanently. 
Social Security is too important not to give workers and their 
families that certainty. It is not enough to just push out the 
trust funds' exhaustion date by a few years. When Congress 
acts, we need to be sure we finally got Social Security on the 
right track for good.
    In addition, to permanently fix the program, I believe 
Social Security solvency should meet the following principles: 
First, it should modernize Social Security to reflect today's 
workers and their families. Second, it should reward hard work. 
Third, it should protect the most vulnerable. And, lastly, it 
should improve retirement security. Millions of Americans rely 
on this important program now, and millions more pay in with 
the expectation of future benefits.
    Congress has a responsibility to the American people to 
make sure that our children and grandchildren can count on 
Social Security, just like seniors and individuals with 
disabilities do today. We need to take this responsibility 
seriously, and that is why this Subcommittee will continue to 
talk about Social Security's solvency and the cost of delay. 
Americans want, need and deserve nothing less.
    I now recognize Mr. Larson for his opening statement.
    Mr. LARSON. Well, thank you, Mr. Chairman. And we are in 
concurrence. We could give one another's speeches, I think, at 
this particular point. As we like to say often, Congress should 
be about the vitality of ideas. And I commend the Chairman 
because he has been a stalwart in making sure that we address 
this issue. And at this point, his last term in Congress, we 
are especially heartened by the fact of his determination to 
put forward legislation that will meet the test of the 75-year 
requirement.
    While the news that we receive today is better than some 
might have expected, especially on the disability side, it does 
remain, as the Chairman has pointed out, our desire, and I 
believe that to be true of everybody on the Committee, to reach 
a conclusion where we make this solvent into the future for all 
generations. And to the Chairman's point, we do have plans, 
competing, but with the general concept in mind that we want to 
make Social Security solvent into the next century.
    We believe that we have to enhance Social Security along 
the way. We think it is unacceptable for many people, 
especially working women, that they retire into poverty. We 
think it unacceptable that our COLAs have been determined by a 
CPI that doesn't actually reflect what the real costs the 
elderly incur are. We think it unacceptable that we haven't 
really changed Social Security since 1983. It is an insurance 
program. Have any of your insurance premiums gone up since 
1983? Of course they have. And so, we think that it is vitally 
important to make sure, especially with the solvency, that we 
look at this and combine both the old-age and retirement and 
disability together, and then provide the actuarial assistance 
to make sure the program is solvent. We believe to do that, we 
have to increase the contribution to the fund. These are 
difficult choices, as Mr. Johnson has indicated, but if you 
phase that in over 25 years, we would, in essence, be doing 
what should have been done in 1983; indexing this in a way so 
that there were gradually, as it kept pace with the actuarial 
concerns of a population, the modest increases that would be 
necessary. This takes us well beyond the 75-year period by 
following these adjustments, and also, making clear that we 
need to enhance the program on behalf of so many beneficiaries.
    We also believe that many seniors who find themselves in 
the workforce deserve a tax break, and by indexing this 
appropriately from what was done in 1983 to, as Mr. Johnson 
says, what needs to be done today to modernize it, we can 
accomplish that. We have a lot of talent on this Committee, and 
many individuals, as we listen to some of the concerns of 
Social Security, and my colleagues on the other side have been 
leaders in talking about the technological changes that would 
be needed that also could produce from antiquated systems that 
don't provide the best up-to-date information that we could 
have. So I concur with the Chairman. I thank him.
    We are looking forward to having a hearing on this where we 
are able to put the vitality of ideas to the test with both 
competing programs, and what I hope will be a great solution 
for the American people.
    Thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you, Mr. Larson. I appreciate your 
comments. Mr. Schweikert, do you care to make a comment?
    Mr. SCHWEIKERT. I have a dozen questions. Why don't we wait 
until after his testimony?
    Chairman JOHNSON. A dozen questions.
    Mr. SCHWEIKERT. Oh, yeah. I am going to go fast.
    Chairman JOHNSON. Well, we will let you have two. How is 
that? As is customary, any Member is welcome to submit a 
statement for the record. Before we move on to testimony today, 
I want to remind our witness to please limit your oral 
statement to 5 minutes. However, without objection, all the 
written testimony will be made part of the hearing.
    We have one witness today. Seated at the table is Stephen 
Goss, Chief Actuary, Social Security Administration. Mr. Goss, 
welcome to our hearing. Thank you for being here. Please, 
proceed.

                 STATEMENT OF STEPHEN C. GOSS, 
         CHIEF ACTUARY, SOCIAL SECURITY ADMINISTRATION

    Mr. GOSS. Thank you very much, Chairman Johnson, Ranking 
Member Larson, Members of the Committee, for the opportunity to 
come and talk to you again about the Social Security Trustees 
Report and the status of these trust funds. As you all know, 
the Social Security Trustees Reports have been coming out from 
the Board of Trustees every single year, starting in 1941, 
updating you on what the status of the program is, and what our 
challenges are in the future to assure that the scheduled 
benefits will be able to be paid to all future generations on a 
timely basis, and in full.
    This year, we project a combined OASI and DI trust funds, 
as Chairman Johnson indicated, to deplete the reserves in 2034, 
at which point there would be continuing income coming in to 
pay thereafter for essentially the indefinite future, about 75 
percent of scheduled benefits, not what is desired and we're 
looking forward to fixing that. At that time, in 2034, if no 
changes were made, we would be in a position where we would 
have 25 percent lower benefits.
    So the options, really, for changes in the future, are 
either to enact changes that will lower benefits by about a 
third, increase revenues to this program by about--I am sorry, 
lower benefits by 25 percent, increase revenues by about one-
third, or some combination of those two.
    The two most significant changes in this years' report, 
already alluded to by the Chairman and Ranking Member, are, 
first of all, the DI solvency side. We are happy to report that 
on the DI solvency side, we have a 5-year extension of the 
period over which we are projecting benefits to be fully 
payable under the DI program. This follows on from the 
Bipartisan Budget Act of 2015, where we had the reallocation 
that moved us from 2016 out to 2022. Last year's Treasury 
report gave us one more year, and this year's report is taking 
us 5 more years out to 2028. The reasons for this seemingly 
dramatic extension of 5 years is that we have had continuing, 
ever since 2010, declining numbers of applications coming in 
for disability. This is not just for Social Security, but also 
for SSI. It is really quite remarkable. We are studying hard 
all the reasons for this.
    In addition, we have had a continuing lower disability 
incidence rate. A percentage of people who could be applying 
for and receiving disability, we are having fewer people 
actually start to receive. We have actually had declining 
numbers of beneficiaries under the DI program since 2013. The 
absolute number has actually been coming down.
    So what we are doing this year for our projections is, 
obviously, accepting the reality of what has happened lately, 
and projecting out from that on a somewhat more gradual basis, 
not having the very next year, some applications will come 
right back up, but have it take 2, 3, 4 years. What we have 
done, however, with the Trustees, is we still maintained the 
same ultimate disability incidence rates by the end of the 10-
year period of the short-range projection period. That is 
obviously under review. We are going to have to monitor very 
closely what continues to happen.
    The overall solvency of the OASDI program, we still have 
the reserve depletion date for OASI and DI combined of 2034. 
For the OASI program all by itself, the retirement survivors, 
that is still 2035, the same as last year. We actually have 
higher reserve levels for the OASDI program through about 2033. 
But the actual deficit for the 75-year period, as a whole, has 
risen from 2.66 to 2.83 percent of payroll. And .05 of that, 
about a third of that, is just from the change in the valuation 
period, bringing in one extra year at the end of the 75-year 
period. Some other things that have contributed to that are the 
more recent data, like somewhat lower birth rates, lower 
immigration flows. Offsetting that somewhat, though, is that we 
have had higher death rates, less improvement in death rates 
than even we had been projecting, and many of them projecting 
much more improvement. Ever since 2009, death rates have not 
been improving in this country, as I think all are familiar 
with at this point.
    We also had a little change that we might talk about more, 
accepting a slightly lower level worker productivity for the 
future. I really do want to comment again, because both the 
Chairman and Ranking Member mentioned this. The real factor, 
the reason we are having this big increase over the next 20 
years in the Social Security cost is not disability anymore, 
but it is in the retirement area. The baby boomers are all 
moving up into the retirement age, and not the working ages. 
And they are being replaced at working ages by the lower birth 
rate generations following, which is fundamentally changing the 
age distribution of our population going forward.
    Finally, I really want to say, once again, that it is 
really a joy and a pleasure working not only with you, but 
really, your excellent staffs. You all have amazing staffs and 
amazing staff work. I can't tell you how lucky you are on that, 
but I am sure you realize it. And we really are looking forward 
to working with you and them to assure benefits will continue 
for the over 60 million beneficiaries we have now, the over 170 
million workers contributing, and all future generations.
    Thank you very much.
    [The prepared statement of Mr. Goss follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                
    Chairman JOHNSON. Thank you, sir. I appreciate your 
testimony. And we will now turn to questions. As is customary, 
for each round of questions, I will limit my time to 5 minutes, 
and ask my colleagues to also limit their questioning time to 5 
minutes as well.
    Mr. Goss, with the Disability Insurance trust fund solvency 
date shifting 5 years later, some folks may think we don't need 
to talk about Social Security right now, and can just wait. I 
want to make sure we are all on the same page. Isn't it true 
that the longer we wait the harder it gets?
    Mr. GOSS. Chairman Johnson, you are entirely correct. The 
one thing we know, and I think you alluded to at least some of 
this, is that a perfect example of what the 1983 amendments, 
the last major change we had, where one of the big factors in 
that was increasing the normal retirement age. That was 
implemented with a 17-year delay. So if we enact something 
relatively soon, even if it is not implemented into the future, 
that gives the people who will be affected lots of advanced 
warning, which is a really good thing. It also allows many more 
options to be considered than if we wait until the last minute. 
And it allows us to phase in changes more quickly. So it is all 
good, when acting sooner, if there is some delay to 
implementation.
    Chairman JOHNSON. Thank you. Mr. Goss, one of the big 
headlines from yesterday's report is the Disability Insurance 
trust fund's solvency date doubling the program's years of 
solvency, which seems like a big change. How confident are you 
that we aren't just going to lose this additional solvency a 
few years from now?
    Mr. GOSS. Well, there is no question that there is a risk 
of that, but our estimates on this point, as with all our 
estimates, we would say we are about equally likely to have the 
solvency date extend further as to come back. The tricky part 
of the Disability Insurance trust fund is that we have a 
relatively low level of trust fund reserve, and also, our 
revenue income, even after we get past the tax rate 
reallocation, compared to our cost of the program, are pretty 
close together. So any significant fluctuation of either one of 
those could cause us to deplete sooner or later. But at this 
point, based on the data we have, the 5-year extension looks 
pretty solid. And, if anything, if applications and incidence 
rates stay anywhere near as low as they have been lately, we 
might very well have a greater extension and have need to 
change our ultimate incidence rates going into the future. But 
time will tell. We just wish we had the crystal ball to be able 
to tell you with any certainty.
    Chairman JOHNSON. Well, thank you. We often hear that if we 
would just raise Social Security taxes, it will solve all of 
Social Security's problems. But it is important for folks to 
understand the facts. Social Security earnings up to a certain 
amount, called the taxable maximum, are subject to payroll 
taxes. What is the taxable maximum this year?
    Mr. GOSS. For this year, 2017, the tax maximum is $127,200. 
So anybody making more than that----
    Chairman JOHNSON. If the taxable maximum were raised to 
cover 90 percent of earnings, what would the taxable maximum be 
this year?
    Mr. GOSS. To cover 90 percent, it would be about double 
that, right around $250,000, to just a little bit less.
    Chairman JOHNSON. Some have suggested we should get rid of 
the taxable maximum, and instead, subject all earnings to 
payroll tax. Mr. Goss, if all earnings were subject to payroll 
tax, would Social Security be solvent?
    Mr. GOSS. It would be solvent longer. It would not be 
solvent sort of into the indefinite future.
    Chairman JOHNSON. Okay. So the answer is no. At what point 
would costs once again exceed income?
    Mr. GOSS. If we were to enact a change with no--let's see--
if we were to enact a change with no benefit credit for the 
extra, we would actually solve about 80 percent of the long 
term, and we would be good to well into the 2060s for the 
solvency.
    Chairman JOHNSON. Into the 20 what?
    Mr. GOSS. Into the 2060s. Let's see.
    Chairman JOHNSON. Really?
    Mr. GOSS. No, I am sorry. If we gave no benefit credit at 
all and taxed all income, our solvency date would move from 
2034 to 2083. Now, if we give benefit credit tax, if we were to 
tax all earnings and then include in our computation of 
benefits the extra earnings that were going to be taxed, then 
we would extend the solvency date out to 2067 for the program 
as a whole.
    Chairman JOHNSON. Out to 20 what?
    Mr. GOSS. Out to 2067.
    Chairman JOHNSON. Yeah. I was told 2026.
    Mr. GOSS. Pardon?
    Chairman JOHNSON. I was told 2026.
    Mr. GOSS. Oh. Well, 2026 would be the--would be the date at 
which the annual income would then start to fall below the 
annual outgo, but we would still have significant reserves at 
that point that would carry us for solvency purposes out to 
2067, so you are exactly right. So on a cash-flow basis, the 
point at which income would again fall below our cost of paying 
all the benefits, which----
    Chairman JOHNSON. So the income would reduce to where it 
wouldn't cover what we are doing?
    Mr. GOSS. Right. The current income would not be 
sufficient. We would have to draw on the reserves.
    Chairman JOHNSON. So even if we get completely rid of the 
taxable maximum, the program will be running cash flow deficits 
within the next decade. Is that true?
    Mr. GOSS. That is correct.
    Chairman JOHNSON. That sure doesn't get us much. As I said 
before, we clearly can't tax our way to solvency. Mr. Larson, 
do you care to question?
    Mr. LARSON. Oh, absolutely. Thank you, Mr. Chairman. And 
thank you, Mr. Goss. Usually, when I go out to do town halls, I 
carry with me two things: The actuary report on the bill that 
we have submitted, and a Starbucks. And I do so to make a 
point. The first point I make to people, and I think you can 
confer on this. The Social Security is an insurance plan. It is 
not an entitlement. It is an insurance plan. It is an insurance 
plan that you are assessed through FICA. FICA is the Federal 
Insurance Contribution Act. Whose contribution? Yours. The last 
time insurance premiums went up in Social Security was in 1983. 
Is that correct?
    Mr. GOSS. That is correct.
    Mr. LARSON. So has anyone in this audience or anywhere in 
the country's insurance not gone up on actuarial assumption 
since 1983? And the answer, of course, is, of course they have 
gone up, because they keep pace with the assumptions and 
changes that are ongoing, except for Social Security. So had, I 
believe, our predecessors indexed this system appropriately, we 
wouldn't be having this discussion, it would have been taking 
care of itself incrementally.
    So, I ask you, as I go out to these town halls, and you 
have done the analysis on our bill, can you confirm that our 
bill doesn't have any cuts in terms of people's benefits?
    Mr. GOSS. That is correct.
    Mr. LARSON. In fact, we increase people's benefits because 
they also have not kept pace. In fact, we find more people 
retiring into poverty, unfortunately, most of them women, 
because of their time in the workforce, and they--or because 
for every dollar their marital counterparts receive, they 
receive $0.77. Is that accurate?
    Mr. GOSS. No question, but that all wage rates are lower 
for women.
    Mr. LARSON. Also, we wanted to make sure with our program 
that we would offer middle income tax relief for seniors. And I 
know this will interest my colleagues. How is it that you have 
tax relief for seniors? Well, because, again, we haven't made a 
change since 1983. In 1983, we said, if you are single and 
making more than $25,000, your Social Security is taxed. And if 
you are a married couple, then it is $32,000. So we changed 
that to $50,000 and $100,000, thereby giving 11 million seniors 
a tax break. So we think that these are all important things, 
and the differences--and I don't think they are big 
differences, actually. I understand clearly the desire on both 
sides to make sure that the Nation's insurance program is 
solvent beyond 75 years, which, again, by your report, the bill 
that we have submitted does. Mr. Johnson's bill does that, as 
well. It takes--it makes it solvent beyond the 75-year period. 
That is the position we need. The differences are that we 
believe that with a modest tax, and we believe that you should 
increase the fund by 1 percent. You said it very well at the 
outset when you said, well, look, here is your alternatives. 
You can make cuts by about a third, I believe you said.
    Mr. GOSS. By about a quarter.
    Mr. LARSON. By about a quarter.
    Mr. GOSS. Revenue by about a third.
    Mr. LARSON. Revenue by a third.
    Mr. GOSS. Or some of each.
    Mr. LARSON. Or some of each. So we believe that especially 
with so many people finding themselves in the position where 
Social Security is their only retirement--the only retirement 
they have. Now, we can lecture them, and say, you should have 
been wiser. But tell that to people who saw in 2008 their 
401(k)s become 101(k)s through no fault of their own. Yet, the 
one program that isn't going to fail them, that is there, and 
never missed a payment, is Social Security.
    So I believe, with the intelligence we have on this 
Committee, that we have an opportunity to solve this. I thank 
the Chairman, because Rich Neal pointed out to me the other 
day, we have not--and Mr. Johnson says this all the time--
really taken this on as a Committee in more than 25 years. We 
have postponed any kind of difficult decision as it relates to 
this. And now, as you pointed out, the baby boomers are upon 
us. I think we have a moral obligation to take action, whatever 
that outcome is, whatever this Committee thinks the best 
alternative is, we ought to have that competition, and we ought 
to have a vote. And I thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you, sir. Mr. Schweikert, you are 
recognized.
    Mr. SCHWEIKERT. Thank you, Mr. Chairman. And it is 
actually--don't make fun of me--it was this hearing that was 
one of my primary reasons I wanted to be on Ways and Means. And 
I have a dozen different things that are bouncing in my head, 
and then you always get the things from your really smart staff 
that say, don't ask that.
    But on your team, do you actually have a demographer, 
someone that basically does population statistics?
    Mr. GOSS. We do indeed. We have 57 folks in our office; we 
have about six or seven economists; in addition to actuaries; 
and we have four or five demographers full-time, all the time, 
working on demography.
    Mr. SCHWEIKERT. Would you ever allow me to geek out with 
one of them? There are a couple things in the numbers that have 
always bothered me. And part of this, actually, is where 
everyone on the Committee has been, trying to understand with 
the crash and the birth rates--and you saw what the report 
showed from this first quarter of the year, we have hit an all-
time low, and a cascade effect of those birth rates for future 
generations. And I am curious because in sometimes reading over 
your documents, I am not sure I am seeing the stressing of 
today's birth rate--if it were to hold in sort of the long-term 
numbers. And I just want to see that is being properly modeled.
    Mr. GOSS. We would love to--we have never been called geeks 
before. I don't think--we would love to geek out.
    Mr. SCHWEIKERT. Oh, I mean that with love.
    Mr. GOSS. We do have a sensitivity section in the Trustees 
Report that actually explores, what if the total fertility rate 
stayed low forever?
    Mr. SCHWEIKERT. Will you ever allow someone to have your 
sensitivity analysis on--I don't know what program you write 
in, but to make it available for one of us who would just like 
to play with it online and move some numbers up and down, 
because we have had discussions here of--as we are doing tax 
reform and other things, would any of those have any influence 
on population growth, or even immigration reform, and the 
ability to also see the cascade benefits or stresses from that?
    Mr. GOSS. Oh, absolutely. The models are pretty 
complicated. We would be really happy to sit down with you, 
your staff, anybody, and work through the implications. We have 
scored comprehensive immigration reform plans. There was one in 
the Senate a couple years ago.
    Mr. SCHWEIKERT. But that was in the past 10 years when you 
did that scoring, wasn't it?
    Mr. GOSS. It has been awhile. It was 2011, I think, maybe. 
But we have all these cascading effects built in.
    Mr. SCHWEIKERT. I actually have that in one of my binders. 
Now, can I ask something that is a little uncomfortable. On the 
DI numbers, and please forgive me, because I was doing this 
partially with your information, and partially on my own, the 
mortality statistics on some of the male population who were 
enrolled in DI, how much of the extension and the longevity is 
because we have so many of our brothers, particularly, killing 
themselves?
    Mr. GOSS. That is a really good question. We do have built 
in to our disability projections, mortality is one of the ways 
in which people cease receiving benefits, of course.
    Mr. SCHWEIKERT. But isn't that the point where you saw some 
real noise between last year and this year?
    Mr. GOSS. We saw some noise. It is relatively modest. We 
have been seeing, ever since 2009, small increments of death 
rates being higher than we have been projecting, and we have 
been modifying for that. Those have had very small effects. For 
the program as a whole, I think it was on the order of .03 or 
.04 percent of payroll.
    Mr. SCHWEIKERT. So that is about half of what I thought.
    Mr. GOSS. So for DI it would be much less than that.
    Mr. SCHWEIKERT. Good. It was just one of those--you see 
some of the statistics of the population of the current 
mortality rates, and then sometimes you will come across 
another number set that says how many of those were actually 
enrolled in DI programs. And we have been struggling, saying,--
is that in the noise? Okay. And I am trying to watch my time. 
On big Social Security, 176 million workers in our society, 60 
million receiving benefits today. So our ratio now is 2.9 
workers?
    Mr. GOSS. Roughly, 172.
    Mr. SCHWEIKERT. Yeah, but 2.9 workers for every 
beneficiary. But, also, even if I take your current number on 
number of years left in the trust fund, so if I am 56, I should 
expect if I take my retirement at, what, 72, I am getting a 25 
percent discount unless we do our job and change the numbers?
    Mr. GOSS. True. But we have total confidence in changes, 
because we never hit that point ever in the past.
    Mr. SCHWEIKERT. But the hard math as of your report today--
is a 56-year-old or younger----
    Mr. GOSS. Uh-huh.
    Mr. SCHWEIKERT [continuing]. When they go to retirement and 
pull their max benefits, they would be receiving a 25 percent 
reduction in that benefit?
    Mr. GOSS. Yes.
    Mr. SCHWEIKERT. So just to sort of put it in perspective--
we have a long on-ramp and we need to start getting on that 
freeway now.
    Mr. GOSS. Exactly.
    Mr. SCHWEIKERT. And the beauty of this is whether you would 
be on the right or the left functionings math, with a number of 
levers. This is something we can all do together. Just one 
other idiosyncrasy, could you tell me the formula, just the--of 
the STIF that is paid for the special treasury bills back to 
the trust funds?
    Mr. GOSS. Ah, yes. So every penny that comes into the 
system is required to be invested immediately into interest-
bearing securities, backed by the full faith and credit of the 
U.S. Government. There are a couple of options, we could 
actually buy marketable securities. Lately, we have been 
getting special issues to the trust fund. Any special issue to 
the trust fund that is provided in a given month, the coupon 
rate on that is precisely what Treasury measures as the average 
effective market yield on all outstanding marketable treasury 
securities as of the prior month, with the remaining duration 
or call or maturity of 4 years or more.
    Mr. SCHWEIKERT. Four years or more?
    Mr. GOSS. Four years or more, so it is a medium- to long-
term yield rate. The actual effective market yield is--well, 
right now----
    Mr. SCHWEIKERT. Because a year ago----
    Chairman JOHNSON. The gentleman's time is expired. Mr. 
Buchanan, you are recognized.
    Mr. SCHWEIKERT. Do you know what your number is right now?
    Mr. GOSS. The number--I believe it is in--well, for the new 
issues, I believe it is in the 2s.
    Mr. SCHWEIKERT. Thank you, Mr. Chairman. Sorry for going 
over.
    Chairman JOHNSON. Mr. Buchanan, you are recognized.
    Mr. BUCHANAN. Thank you, Mr. Chairman. I appreciate you 
coming back. I have been on the Committee for awhile, so we 
always kind of like your updates. I am from Sarasota, 
Bradenton, Florida. We represent, probably, I think, the top 
two or three most seniors of any district in the country. And, 
of course, Florida in general. I am concerned about all of the 
seniors, but I also am concerned about our children and 
grandchildren. I have four grandchildren under 3, so I am very 
concerned. I am glad we are looking out 75 years. But let me--
and I do want to--my colleague had mentioned, there is a lot of 
truth, and I see it every day--I did a town hall the other day. 
A third of Americans, when they get 65, I have heard, you know, 
don't have anything but Social Security and Medicare. And 
another third have something, but not enough. And then another 
third got lucky or whatever. So that is why these programs--and 
I agree--are so critical that we do the right thing.
    I want to ask, because this is maybe, you know, a more 
sensitive issue for some people, but the reality--and these are 
things--I do a lot of town halls and these are things that I 
get. The trust fund, in the 1960s, they took all the money out 
of it, so there is an IOU from the Federal Government. Is that 
correct?
    Mr. GOSS. I believe for the entirety of the existence of 
the program, it has been required that we invest.
    Mr. BUCHANAN. Let me ask it a different way. How much money 
is there ideally, in theory, in the trust fund?
    Mr. GOSS. It depends on the way in which you formulate the 
loss the way in which it should be funded.
    Mr. BUCHANAN. My understanding, there is nothing in the 
trust fund other than an IOU from the Federal Government 
because they used those funds. It is my general understanding 
that in the 1960s, that is kind of what I hear. My concern is, 
and I am sure you don't take a look at that, when you look at 
the viability of Social Security to 2032 or 2034, you are 
taking into account the ability of the Government to be able to 
do its part and pay back the trust fund. Is that correct?
    Mr. GOSS. Absolutely.
    Mr. BUCHANAN. So when you are running the last 10 years, 
there is $10 trillion worth of debt in deficits. I have been 
pushing since I have been here, a constitutional balanced 
budget amendment, like 49 out of 50 governors have, that simply 
says you don't spend more than you take in. But if you look 10 
years ago, when I first got here, it was almost $9 trillion in 
debt. Today we are $20 trillion in debt. So when you look at 
the viability of Social Security, you are counting on the 
ability of the Federal Government to meet its obligations. Is 
that correct?
    Mr. GOSS. That is correct.
    Mr. BUCHANAN. Okay. I just want to make sure that is on the 
record. Because I think it is something we have to deal with, 
especially when you look at--and there is plenty of blame to go 
around. This isn't a Democrat or Republican issue, but I think 
it should be something that gets looked at. As a business 
person and the guy that was on bank boards, the ability to pay 
is something we look at seriously.
    Let me get down to one basic--a couple of basic issues. On 
COLA, I get asked by a lot of the seniors, I guess we received 
a little bit of an increase, .3 of 1 percent, the year before, 
nothing. And then there were some increases over the years. The 
argument I hear is, look, our costs in the last couple of years 
have gone up. We are not seeing anything extra in COLA. How are 
you guys figuring this COLA? So maybe you can comment.
    So last year was little or nothing, and the year before was 
nothing in terms of COLA. Where are we at today, or how can you 
explain what has taken place in the last couple of years?
    Mr. GOSS. Well, the latest projection, and very uncertain, 
of course, is for the next COLA, December of this year, of 2.2 
percent. We will see. We determine the COLA based straight up 
on the basis of the material that comes from the Bureau of 
Labor Statistics, they do the survey of urban wage earners and 
clerical workers, a big survey across the country, of how much 
the price of the market basket of things they buy changes over 
time. And when the price of things they buy goes down, as it 
did two COLAs ago, we ended up not having any adjustment. Last 
year we had a small adjustment because the price came back to 
somewhat higher than it had been 2 years prior.
    Mr. BUCHANAN. What are you projecting this year?
    Mr. GOSS. We are projecting this year 2.2 percent.
    Mr. BUCHANAN. So is that fair, if seniors ask me, the 
projection is 2.2, is there a fairly good chance that is going 
to be somewhat a reality?
    Mr. GOSS. Probably somewhere between 1\1/2\ and 2\1/2\ 
would be a good guess, because there is a lot of uncertainty. 
And the thing that has really driven the volatility of prices 
in this market basket in recent years is the price of energy, 
in particular, petroleum products. And we continue to see lots 
of fluctuations of that every time we go to the gas pump. So 
that has really been kind of the issue. But we are expecting on 
the order of a couple of percent for this next upcoming COLA.
    Mr. BUCHANAN. Thank you, Mr. Chairman. I yield back.
    Chairman JOHNSON. Thank you. Mr. Pascrell, you are 
recognized.
    Mr. PASCRELL. Thank you, Mr. Chairman. Thanks for putting 
this together and being one of the pioneers to say, let's 
prepare for the future.
    Chairman JOHNSON. Thank you.
    Mr. PASCRELL. I think that is important. I have traveled 
with Brother Larson in many communities to talk about the 
legislation that my friend from Connecticut has talked about. 
But I am alarmed, Mr. Chairman, I am alarmed at the fact that 
the budget that was presented this year, The New Foundation for 
American Greatness, that was the title of the book which 
contained the budget, had a $64 billion cut in disability, 
Social Security Disability. So I know that you don't directly 
deal with that, but that was alarming to me, in view of us 
trying to package something. When they say we have 16, 17 years 
to do this, but I don't know if that is accurate or not. But 
about the COLA, that we can talk about. And what we need to 
understand, in dealing with Social Security issues, is that 
COLA is very important for seniors who live on fixed income.
    Now, that COLA should represent, to me, the actual expenses 
that seniors have to put up with day in and day out. Instead, 
you know, there are so many exceptions to the rule. And it is 
so antiquated, the formula that we use. We never capture what 
that COLA is because we are afraid to deal with the reality of, 
well, how do we address that in terms of cutting checks for 
people every month? Now, they paid into it; I paid into it; you 
have paid into it, and we want a fair return at the end. The 
legislation that the gentleman from Connecticut has talked 
about reflects it. The legislation is right on concerning how 
we will adjust that COLA to be more realistic about what 
seniors get in that check that was cut, wherever it was cut. 
And will you agree with me?
    Mr. GOSS. I believe Mr. Larson's bill would change to the 
CPIE for experimental----
    Mr. PASCRELL. Right.
    Mr. GOSS [continuing]. Some people say. It is based on 62-
and-over population's market basket approach.
    Mr. PASCRELL. Let me ask you this, Mr. Goss. First of all, 
is Social Security bankrupt?
    Mr. GOSS. By any normal meaning of the word, I think we 
have to say no. As Chairman Johnson and others have said, even 
if we reach the point of reserve depletion, we still will be 
able to pay initially 77, more or less, on the order of----
    Mr. PASCRELL. And it appears from those same numbers that 
we are not on the verge of bankruptcy. No, we are not bankrupt 
today, but we are going to be bankrupt tomorrow. Now, we can't 
say that right now. Has Congress needed to shore up Social 
Security, the trust fund in the past?
    Mr. GOSS. Numerous times, and it has always stepped up.
    Mr. PASCRELL. Have the actions that the Congress took in 
the past to shore up the trust fund, we hear a lot about that, 
resulted in any substantial benefit cuts?
    Mr. GOSS. It has at times. The principal benefit reduction 
was actually back in the 1977 amendments when there was 
actually a need for a major change in the benefit formula, but 
there were in the 1983 amendments, there was a mix between 
additional revenue and----
    Mr. PASCRELL. Right. Has Social Security ever failed to pay 
anyone's benefits?
    Mr. GOSS. Social Security has never reached the point of 
reserve depletion, and failed to pay the scheduled benefits on 
a timely basis.
    Mr. PASCRELL. What I think your answers are, and I will be 
very quick, Mr. Chairman. It says, to me, that Congress will 
need to take action to extend the trust fund solvency, but we 
do not need to cut benefits or substantially restructure the 
program to do this. Would you agree with that?
    Mr. GOSS. It is certainly possible to extend the solvency 
without benefit reductions.
    Mr. PASCRELL. Mr. Chairman, thank you, and good luck on 
your endeavor.
    Chairman JOHNSON. Thank you, sir. Mr. Rice, you are 
recognized.
    Mr. RICE. Thank you, Mr. Chairman. They called for a vote, 
so I am going to be quick. There are a whole lot of major 
issues that are facing this country that have been over our 
heads for a long time, and I believe are holding our economy 
back: tax reform, healthcare, infrastructure, but none more 
important to more people than Social Security. It affects such 
a large swath of our population, it is so critical to their 
everyday life.
    One question was referred to earlier that I get all the 
time, but I want you to state this in more simple terms for the 
folks back home. I frequently hear, well, Social Security would 
be all right if the Federal Government hadn't robbed the Social 
Security bank. In fact, the money--the money comes in, and it 
is in a trust fund--and I always respond, the only problem with 
Federal trust funds is if they are not funded, you can't trust 
them. That being said, you have to invest that money, you just 
don't leave it in the closet, you have to invest it. When 
dealing with Social Security, you want to invest it in 
something that is rock solid, like something backed by the full 
faith and credit of the U.S. Government, so you loan the money 
to the government. Now, is the government cheating Social 
Security in any way in that transaction?
    Mr. GOSS. The government--there is no way we could say the 
government is cheating Social Security. Every penny that has 
ever gone to the trust fund, when it is needed, it comes back 
with interest.
    Mr. RICE. And I have looked at the rate that the government 
pays Social Security on that trust fund, and in the last 
decades, that rate has averaged higher than the government pays 
on the 10-year treasury bill. Can you confirm that?
    Mr. GOSS. The rate--the whole things we have in the trust 
fund, many of them were issued years ago when the rates were 
actually higher. So we retain those bonds until we redeem them 
at the higher rate. The average yield is higher than the 
current new issue rate.
    Mr. RICE. So the government, in borrowing money from Social 
Security, could borrow it from other places cheaper. The 
government could go and borrow that money on the market for a 
10-year treasury bill cheaper than the rate it is paying to 
Social Security.
    Mr. GOSS. Well, actually, for new money to be borrowed 
today from the trust funds or from the market, they pay exactly 
the same rate for new money that is being borrowed. For older 
existing bonds, they are paying us possibly a higher rate. But 
if somebody in the populace is holding a marketable treasury 
that is 10 years old, they will be getting a higher rate also.
    Mr. RICE. Just to be crystal clear, I don't want to 
complicate this for my folks back home: The rate that the 
government has paid to the Social Security trust fund, to 
borrow that money from the Social Security trust fund, is 
higher for the last two decades than what the government pays 
on the 10-year treasury bill?
    Mr. GOSS. I respectfully would suggest that the rate of any 
new bond issued is issued with a coupon rate exactly according 
to what the current effective market yield is.
    Mr. RICE. That is new bonds. But on the whole pile, the 
average rate----
    Mr. GOSS. The average rate for existing bonds that we are 
holding is higher than the current effective market yield for 
bonds.
    Mr. RICE. Thank you, sir.
    Chairman JOHNSON. As we have heard today, even with the 
improvements in the solvency of Disability Insurance, Social 
Security faces serious challenges. Americans deserve a fact-
based conversation about the tough choices necessary so that 
Social Security is a program our children and grandchildren can 
count on, just as seniors and individuals with disabilities do 
today.
    I look forward to continuing this conversation and working 
with all my colleagues to strengthen Social Security. Thank you 
to our witness for his testimony. Thank you, also, to our 
Members for being here. With that, the Subcommittee stands 
adjourned.
    [Whereupon, at 10:43 a.m., the Subcommittee was adjourned.]
    [Questions for the Record follow:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
